CERTIFICATE OF COMPLIANCE
Case No. 19-333
Caption: Arlene's Flowers v. Washinton
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 8,000 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on December 6, 2019.

~~
Samantha Collins
Record Press, Inc.

Sworn to before me on
December 6, 2019
JASMINE WILLIAMS
Notary Public, State of New York
No. 01WI6397949
Qualified in Queens County
Com ission Expires September 16, 2023

